<html>
<title> - THE BP OIL SPILL: HUMAN EXPOSURE AND ENVIRONMENTAL FATE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
        THE BP OIL SPILL: HUMAN EXPOSURE AND ENVIRONMENTAL FATE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2010

                               __________

                           Serial No. 111-132


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
77-909                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bfcebf4dbf8eee8eff3fef7ebb5f8f4f6b5">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
                 Subcommittee on Energy and Environment

               EDWARD J. MARKEY, Massachusetts, Chairman
MICHAEL F. DOYLE, Pennsylvania       RALPH M. HALL, Texas
JAY INSLEE, Washington               FRED UPTON, Michigan
G.K. BUTTERFIELD, North Carolina     ED WHITFIELD, Kentucky
CHARLIE MELANCON, Louisiana          JOHN SHIMKUS, Illinois
BARON HILL, Indiana                  JOHN B. SHADEGG, Arizona
DORIS O. MATSUI, California          STEVE BUYER, Indiana
JERRY McNERNEY, California           GREG WALDEN, Oregon
PETER WELCH, Vermont                 SUE WILKINS MYRICK, North Carolina
JOHN D. DINGELL, Michigan            JOHN SULLIVAN, Oklahoma
RICK BOUCHER, Virginia               MICHAEL C. BURGESS, Texas
FRANK PALLONE, Jr., New Jersey
ELIOT ENGEL, New York
GENE GREEN, Texas
LOIS CAPPS, California
JANE HARMAN, California
CHARLES A. GONZALEZ, Texas
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
JIM MATHESON, Utah
JOHN BARROW, Georgia
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachussetts, opening statement..............     1
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     2
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     3
Hon. Charlie Melancon, a Representative in Congress from the 
  State of Louisiana, opening statement..........................     4
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     6
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................     6
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................     8
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     9
Hon. Mike Ross, a Representative in Congress from the State of 
  Arkansas, opening statement....................................     9
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    50

                               Witnesses

Chris Reddy, Ph.D., Associate Scientist, Department of Marine and 
  Geochemistry, Woods Hole Oceanographic Institution.............    10
    Prepared statement...........................................    13
Edward J. Trapido, Sc.D., FACE, Associate Dean for Research, 
  Professor and Wendell Gauthier Chair of Cancer Epidemiology, 
  LSU Health Sciences Center, New Orleans, School of Public 
  Health.........................................................    17
    Prepared statement...........................................    19
Gina Solomon, MD, MPH, EPA Science Advisory Board, Senior 
  Scientist, National Resources Defense Council, Associate 
  Clinical Professor of Medicine at the University of California 
  at San Francisco, Associate Director of the UCSF Pediatric 
  Environmental Health Specialty Unit............................    23
    Prepared statement...........................................    25


        THE BP OIL SPILL: HUMAN EXPOSURE AND ENVIRONMENTAL FATE

                              ----------                              


                        THURSDAY, JUNE 10, 2010

                  House of Representatives,
            Subcommittee on Energy and Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:54 p.m., in 
Room 2123, Rayburn House Office Building, Hon. Edward J. Markey 
[chairman of the subcommittee] presiding.
    Present: Representatives Markey, Butterfield, Melancon, 
Matsui, McNerney, Dingell, Capps, Gonzalez, Ross, Matheson, 
Barrow, Waxman (ex officio), Upton, Stearns, Burgess, and 
Scalise.
    Staff Present: Phil Barnett, Staff Director; Bruce Wolpe, 
Senior Advisor; Greg Dotson, Chief Counsel, Energy and 
Environment; Jackie Cohen, Counsel; Michal Freedhoff, Counsel; 
Melissa Cheatham, Professional Staff Member; Caitlin Haberman, 
Special Assistant; Peter Kethcham-Colwill, Special Assistant; 
Karen Lightfoot, Communications Director, Senior Policy 
Advisor; Elizabeth Letter, Special Assistant; Mitchell Smiley, 
Special Assistant; Aaron Cutler, Minority Counsel; Audrea 
Spring, Minority Professional Staff; and Garrett Golding, 
Minority Legislative Analyst.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Good afternoon.
    We apologize to all of you who have been waiting. We just 
had nine roll calls on the floor of the House of 
Representatives. And it did lead to a delay in the Members' 
ability to arrive so that we could have this very important 
discussion.
    It has been 52 days since the BP Deepwater Horizon drilling 
rig began spewing oil into the Gulf of Mexico, creating a 
manmade environmental catastrophe of a magnitude never before 
encountered in this country. A few weeks ago, I led a 
congressional delegation to the BP oil spill in the Gulf of 
Mexico. We flew over the disaster and witnessed the streams of 
oil that stretch as far as the eye can see and saw the billows 
of smoke from the burning oil rising hundreds of feet above the 
sea surface. This past weekend, I returned and saw the stain of 
BP's oil on the cane in the marshland.
    Every day, as this oil encroaches on our wetlands and our 
estuaries, we all sense the doom facing the countless species 
that live both above and below the surface. Oil has made its 
way onto the beaches and marshes of four coastal States. 
Dispersants are being used in unprecedented quantities and at 
depths never before attempted. Methane and other gases spew 
from the gaping wound BP has inflicted on the ocean floor, 
mixing with the oil and dispersants to create a toxic stew of 
chemicals.
    Hundreds of animals, fish, birds, turtles, dolphins and 
other species have already been found dead. We have also heard 
reports that there may be clouds of subsurface oil that pose an 
insidious threat to deepsea coral and other marine life, oil 
that will not make its presence known by the clear signs of tar 
balls or oiled birds but which could nevertheless harm 
generations of aquatic life.
    As these enormous toxic clouds drift through the ocean, 
naturally occurring bacteria that eat the oil and gas will also 
consume the oxygen needed by other marine plants and sea life. 
So in addition to slowly being poisoned by the toxic stew, 
marine plants and animals are therefore also being faced with 
death by asphyxiation. Large portions of the food chain of the 
Gulf region may be at risk of annihilation.
    The impacts of this calamity do not end in the water or on 
the shores. The crude oil and burning operations have left the 
air in the regions closest to the incident thick with a mixture 
of chemicals that have been tied to acute health problems, such 
as headaches, dizziness, nausea and respiratory irritation. 
These chemicals have also been linked to the development of 
cancer and other chronic diseases.
    In addition, there is increasing concern that seafood from 
the Gulf is being contaminated with petroleum products and 
other chemicals, putting human health in the direct line of 
fire and tugging at the Gulf region's already sensitive 
economy.
    After 6 weeks of failed junk shots and top kills and 
endless television images of ineffective skimmers and booms, BP 
has finally admitted the truth: There was no viable response 
plan because BP did not invest the time or resources and, 
therefore, didn't have the tools. Its response plan included 
walruses and seals and sensitive biological species in the Gulf 
of Mexico, where they do not exist. It listed as its experts 
some who were long deceased and phone numbers for offices that 
did not exist. It claimed that there would be almost no impacts 
associated with a worst-case release of 10 times as much oil as 
we now face.
    It is clear that we cannot trust BP to assess or address 
anything. Today we have before us experts who have been in the 
Gulf studying this bill and who can share with us the 
ecological and human health impacts that BP's oil will have. I 
look forward to hearing this important testimony, but first I 
would like to recognize my distinguished colleague, the ranking 
member, the gentleman from Michigan, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    There is no question, no question at all, that every one of 
us is outraged and heartbroken by the disastrous oil spill in 
the Gulf that left 11 dead and has spread an unknown quantity 
of oil into the sea. It is truly a very tragic event for our 
entire Nation.
    As I have said many times, it needs to be made crystal 
clear to everyone involved that the polluter will pay, and the 
American taxpayers should not and will not be on the hook for 
the cost of this accident, both economic and environmental.
    And as someone who grew up along the shore of Lake 
Michigan, I understand firsthand the economic and environmental 
importance of protecting our natural resources. As the oil 
continues to gush at an untold rate, I am looking forward to 
hearing the testimony today to learn more about the impact of 
the spill on human and environmental health and what the future 
may hold.
    While it is imperative that we produce oil and natural gas 
domestically to lessen our dependence on foreign oil, we must 
do so in a responsible manner to ensure that we do not 
compromise the integrity of our natural resources.
    Just as Lake Michigan provides the very foundation of our 
livelihood and economy in the Midwest, so does the Gulf of 
Mexico for the States that surround it.
    Our health and the health of future generations depends 
upon our ability to wisely manage our ecosystems.
    I yield back my time.
    Mr. Markey. Great. The gentleman's time has expired.
    The chair recognizes the gentleman from California, the 
chairman of the full Energy and Commerce Committee, Mr. Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    Thank you for recognizing me and for holding this hearing.
    We are looking at this issue from so many different 
perspectives. Our committee has jurisdiction over energy and 
over oil and gas extraction.
    But we cannot avert our eyes to what is happening right now 
in the Gulf of Mexico. The tragic consequences are on so many 
different levels. This oil spill by most estimates has now 
surpassed even the Exxon Valdez spill of 1989. To date, 
millions of gallons of oil have flowed into the Gulf of Mexico 
with no end in sight until the end of August.
    It is too early to tell the full extent of the 
environmental and human health impact of this spill. That is 
why I am glad we are holding this hearing because we need to 
understand that: Nothing like this has ever happened before. A 
spill of this magnitude under these circumstances is 
unprecedented.
    We can, however, anticipate some of the likely effects. And 
that is why it is so important we are having the hearing. And 
we are looking forward to the testimony of the witnesses.
    It is too obvious the spill will have serious environmental 
consequences. We have seen the devastating pictures of coated 
shoreline, oiled wildlife. We are hearing about the possible 
plumes of oil under the surface of the ocean, threatening 
entire underwater ecosystems.
    What we don't know is the long-term environmental impact of 
oil as it settles into the ocean floor, into the marsh 
ecosystems and as its chemicals move into the ocean food chain.
    The health impacts of the spill could also be extremely 
serious. We know that crude oil contains many substances known 
to be toxic to people, including the chemicals known commonly 
as BTEX chemicals. These chemicals can cause short-term acute 
health effects, such as headaches, nausea. We have already 
heard reports from people that are suffering those 
consequences. We know that they also have been shown to cause 
cancer and other long-term neurologic and reproductive damage.
    We are going to have consequences from this spill for 
decades. So it is important now that we start understanding the 
problem and preparing for those consequences. And I think that 
it is appropriate that we have three experts who can help us 
understand the likely impacts of the spill. I look forward to 
their testimony. I hope your work will prepare us for the 
inevitable impacts of this catastrophe. Thank you.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    The chair recognizes the gentleman from Louisiana, Mr. 
Melancon, for an opening statement.

OPENING STATEMENT OF HON. CHARLIE MELANCON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Melancon. Thank you, Mr. Chairman.
    Thank you for holding this hearing today and for starting 
the discussion on what impact this environmental catastrophe is 
having and will have on the residents of the Gulf Coast, 
including families I represent in the Third District of 
Louisiana.
    I would like to thank all the witnesses for coming today, 
but I would like to give a special thanks to Dr. Trapido, from 
New Orleans, for participating today.
    Thank you, Doctor.
    I remain concerned about the physical and mental health of 
the workers, volunteers and the residents of Louisiana's Third 
District and, for that matter, of all of the State of 
Louisiana.
    I believe no one knows for certain the long-term health 
effects that face the people of Louisiana and the Gulf Coast. 
And I worry about these people every day. We need to protect 
them at all costs and ensure that their health remains a top 
priority, even after the leak is stopped.
    We have learned from Katrina that the end of the immediate 
disaster doesn't mean the end of the response. Respiratory 
problems linked to formaldehyde in trailers and mental health 
issues that still linger in our communities are constant 
reminders that the unanticipated impacts of a disaster may last 
for years or even decades to come.
    In disaster response, the best way forward isn't always in 
black and white. So we should be erring on the side of caution 
and taking every opportunity to make certain that the health 
and safety of the Gulf Coast residents is a priority.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Markey. We thank the gentleman.
    The chair recognizes the gentlelady from California, Ms. 
Matsui.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman, for calling today's 
hearing.
    I would like to also thank the witnesses for being with us 
today.
    In the 6 weeks since the Deepwater Horizon rig explosion, 
an estimated 500 million to 1.1 million barrels of crude oil 
has poured into the Gulf of Mexico. Recent reports of the 
dozens, including residents in the coastal areas, cleanup 
workers and those providing relief aid, who have been 
hospitalized with health problems should raise concerns about 
the short- and long-term health effects associated with 
sustained exposure to the chemicals contained in crude oil 
which are known carcinogens to humans.
    As we continue our ongoing efforts to stop this spill, hold 
those responsible accountable and ensure that the natural 
resources along the Gulf Coast are protected and restored, it 
will also be important to have a regional and national endeavor 
to assess the health impact.
    It is still unclear as to how this environmental disaster 
will affect the deepsea ecosystem. But it is critical that we 
carefully review the previous assessments made by scientists 
about past oil spills to prepare our continuing response.
    Beyond all of the undersea environmental consequences, the 
oil has already begun to seep into the coastal wetlands 
besieged by overdevelopment, pollution, and the lingering 
damage of Hurricane Katrina.
    This catastrophe also underscores the need to look beyond 
oil production and consumption and invest in clean energy 
alternatives to help save our health as well as our 
environment.
    Thank you, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
    Mr. Markey. We thank the gentlelady.
    The chair recognizes the gentleman from California, Mr. 
McNerney.
    Mr. McNerney, Thank you, Mr. Chairman.
    And I thank the witnesses for coming here today.
    An absolute tragedy and disaster. We need to pray for the 
people that live in the affected areas and work for their 
betterment.
    But now that the disaster is unfolding, we need to get some 
sort of quantitative idea of the results of the spill. So some 
of the questions I am going to be asking are, what is the 
habitat damage? How bad is it? How permanent is it? How many 
species are lost? What fraction of the species are lost? And 
should we expect long-term health consequences for humans that 
live in the area? And what are the quantifications of that? 
Should we accept settlements from BP, or should we hold off and 
try and get an assessment?
    Those are the things I think we need to try to understand 
here today.
    I yield back.
    Mr. Markey. We thank the gentleman.
    The chair recognizes the chairman emeritus of the full 
committee, the gentleman from Michigan, Mr. Dingell.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you, Mr. Chairman.
    You are most courteous, and I thank you for holding the 
hearing today. Your commitment on this issue is both evident 
and commended.
    We are now on day 52 of the biggest oil spill in history. 
More than 2.19 million feet of containment boom, 2.46 million 
feet of solid boom have been deployed to try and contain the 
spill.
    God alone knows how much oil has actually spilled, and 
nobody knows when it is going to stop. We do not know what all 
is going to come of this.
    We suspect that more than 1.09 million gallons of 
dispersant have been deployed, although we do not know the 
environmental and health effects of that dispersant and how 
they might affect us or the future of the area.
    We also know that there have been more than 125 controlled 
burns conducted, which have removed more than 3.2 million 
gallons of oil from the open water. But we don't know at what 
cost to the folks who are working on the cleanup.
    We know, Mr. Chairman, that more than 32 percent of the 
waters of the Gulf of Mexico have been closed to fishing, 
which, in addition to oil and gas drilling, is the lifeblood of 
the Gulf region. We don't know how long these waters will be 
closed to fishing, but I suspect that it will be longer than 
any of us expect or any of us would like.
    Frankly, we have to find out what has happened, and we 
cannot allow a spill like this to ever again happen. In order 
to ensure that, we must get to the bottom of what has happened.
    It is equally important, however, that we know the 
consequences not only of the spill but what we have done to 
control it.
    I look forward to hearing some insights on these matters 
from our witnesses. The information they can provide will be 
important as we look at the long-term effects and costs, 
health, environmental and monetary of this tragedy.
    Thank you, Mr. Chairman.
    Mr. Markey. We thank the chairman.
    The chair recognizes the gentleman from Texas, Mr. Burgess.
    Mr. Burgess. Mr. Chairman, I will waive.
    Mr. Markey. The chair recognizes the gentleman from 
Louisiana, Mr. Scalise.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman.
    It is certainly important that we fully understand the 
potential health effects that could result from inhalation or 
other contact with oil, oil vapors, or chemicals. While I 
appreciate the topic of our hearing today, it is critically 
important that we continue to focus on the cause of this 
disaster and ways to stop the oil from inundating the 
coastlines of the Gulf.
    Each week, when I return home to my constituents, I hear 
stories of anger and frustration with the lack of effort on the 
ground by both BP and this administration to stop the leak and 
contain the oil. The efforts are not working.
    BP and the administration seem to be dragging their feet, 
allowing bureaucratic red tape to impede progress and ignoring 
ideas on ways we can fight the Gulf oil.
    It took over 3 weeks for the administration to even approve 
the sand-berm plan that State engineers submitted as a method 
of protecting our valuable marshlands. These kind of delays are 
simply unacceptable.
    There are many people around my State and the country who 
have submitted ideas to BP and the Federal Government with 
potential ideas on how to stop the leak and protect our fragile 
coastal ecosystems. You have heard ideas ranging from hay to 
supertankers to collect the oil and control the ever growing 
flow in the Gulf.
    Unfortunately, these ideas have seemingly gone into a black 
hole and have not been implemented. There is more than enough 
oil in the Gulf of Mexico to test all of these ideas being 
submitted. And if a plan works, you do more of it. And if it 
doesn't work, you toss that one aside.
    Frankly, I, along with the people of Louisiana, have had 
enough and are sick and tired of the excuses that we continue 
to be given by BP and the Obama Administration.
    While the President likes to publicly claim that he has 
been in charge of the situation from day one, we continue to 
see examples of BP being put in charge of decisions on the 
ground that they have no business being responsible for.
    BP should not be the gatekeeper on the ground when our 
local officials are looking to go get boom.
    They shouldn't be the ones that determine which beaches are 
cleaned up.
    The President has got to recognize his role under the law 
and start acting.
    The claims process for small businesses that are losing 
their livelihoods is backlogged, and it has to be improved for 
our fishermen and the other industries that support and are 
affected by this spill.
    BP needs to be focused on finding ways to stop the oil from 
coming out of the well, and the President must step up his 
efforts to take control of the situation when it comes to 
protecting our marshlands from the oil.
    Also, we are beginning to hear more reports about arguments 
between rig workers over when to remove drilling mud from the 
drill pipe during the well-capping process. During a hearing of 
this committee on May 12th, I explicitly asked BP and 
Transocean whether there was a heated disagreement on board the 
rig just before the explosion regarding the process of 
displacement and removing mud. Both companies denied knowledge 
of these arguments, and yet we continue to hear report after 
report that there was a major disagreement about this process 
prior to the explosion. We need to get more answers for a lot 
of these questions, and hopefully, we will get some today.
    Thank you, Mr. Chairman.
    Mr. Markey. Thank you.
    I thank the gentleman from Louisiana.
    The chair recognizes the gentlelady from California, Mrs. 
Capps.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Mr. Chairman, for holding this 
increasingly important hearing.
    Each day it is becoming increasingly evident that BP's oil 
spill in the Gulf of Mexico is not only an environmental and 
economic disaster but a human health crisis as well. Fishermen 
working on the cleanup have become ill after working long hours 
near waters fouled with oil and dispersant, reporting nausea, 
dizziness, headaches and chest pains. These local fishermen and 
shrimpers not formally trained in how to work with hazardous 
chemicals and must rely on BP for impromptu training and 
provision of necessary protective equipment.
    However, an internal Department of Labor memo has described 
significant deficiencies in BP's handling of worker safety 
issues, warning that there has been a general systemic failure 
from BP to ensure the safety and health of the responders.
    Last month, I wrote to BP with Health Subcommittee Chairman 
Pallone urging BP to take the necessary steps it was clearly 
not doing to ensure the health and safety of the workers and 
volunteers cleaning up their giant mess. Not surprisingly, BP 
never responded. But the reports of worker illness and lack of 
protective gear persist.
    And shockingly, according to a recent report by McClatchy 
News Service, BP's own offshore air monitoring plan allows 
workers to remain in areas where harmful vapors are up to four 
times higher than accepted practice to prevent an explosion.
    BP has made clear that they are incapable of making the 
protection of the public's health their priority. When it comes 
to public and worker health, there is no reason to believe that 
BP has the expertise, the resources, or the incentives to 
really address the issues involved.
    That is why I have written the Obama Administration urging 
them to relieve BP of their role in the public health response; 
instead leverage the good work that the administration is 
already doing in public health protection across agencies in a 
coordinated way.
    The fishermen and shrimpers working to clean up BP's mess 
must be protected now to ensure their health and safety long 
into the future.
    As a public health nurse who lived through the 1969 spill 
in Santa Barbara, I know the damage wrought by an oil spill can 
continue to haunt the public's health long into the future. 
While I hope we hear more today about the acute health problems 
associated with exposure to oil and dispersants and the 
detergents used to clean it up, I hope we can also discuss some 
the long-term effects, health effects that can come from this 
exposure. We must move the public health consequences from BP's 
disaster out of the shadows and into the forefront of our 
conversations.
    BP's oil spill has already caused enough economic and 
environmental damage to the Gulf Coast. We must now do all that 
we can to protect human health from any potential long-term 
effects.
    I yield back.
    Mr. Markey. The gentlelady's time has expired.
    The chair recognizes the gentleman from Florida, Mr. 
Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Thank you, Mr. Chairman, and I thank Ranking 
Member Upton for calling, as many pointed out, a very crucial 
and important hearing on the environmental impact of the oil 
spill and the methods chosen by the administration to address 
it.
    I think it goes without saying that the Deepwater Horizon 
discharge of oil is unprecedented in American history, and it 
has resulted, obviously, in devastating damage to the economic, 
environmental and social interests of every community in the 
Gulf Coast and the Nation as a whole. And we don't know the 
impact across this country yet.
    My home State of Florida has the most densely populated 
coastline in the United States. This spill threatens the 
beaches on which people live and on which our hospitality and 
tourism depends and on which are commercial and recreation 
boating, fishing and diving industries also depend. Florida is 
home to 84 percent of the Nation's coral reef ecosystems that 
contribute over 7 billion in direct economic activity and 
71,000 jobs to Florida's economy annually.
    We must use all available resources and the brightest minds 
in this country to stop this spill and determine the impact it 
will have on the environment and the people who work and reside 
near the Gulf of Mexico.
    So I, again, urge my colleagues to listen carefully to our 
witnesses, and I look forward to their testimony.
    Mr. Markey. We thank the gentleman.
    The chair recognizes the gentleman from Arkansas, Mr. Ross.

   OPENING STATEMENT OF HON. MIKE ROSS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Ross. Thank you, Chairman Markey, for holding today's 
hearing to examine the health and environmental effects of this 
spill.
    I first want to express my frustration, my disappointment 
that we are on day 52 of this environmental disaster and BP has 
still not developed a clear path forward to stop the leak or to 
clean up the oil that has been gushing into the Gulf of Mexico 
for almost 2 months now. That is why I believe this 
administration and our government must do more to hold BP 
accountable.
    This preventible accident is a wake-up call for the oil and 
gas companies and the government agencies that regulate them. 
We must take this opportunity to not only examine our safety 
standards in deepwater drilling but to also examine how this 
spill is affecting our wildlife, ecosystems and the health of 
all those individuals affected by the spill, as well as its 
cleanup.
    And we can never, never forget those who died in the 
explosion, nor the families they leave behind.
    I also want to thank the experts who have come before this 
subcommittee today to testify about the health effects this 
disaster is causing, and I look forward to discussing ways that 
we can mitigate these harmful effects.
    After weeks of oil still pouring into the Gulf, it is clear 
that the procedures were not in place or did not work 
effectively to prevent this disaster. And it is clear BP was 
not prepared to respond to such an event.
    Additionally, I am hopeful we can find the best possible 
solutions to guarantee that the health and environmental 
effects caused by the spill are properly addressed. Our natural 
resources, including our beaches, wetlands and wildlife, are 
what set the States affected by this spill apart from the rest 
of the country. I am hopeful that this tragic event and this 
hearing can be a learning experience to ensure that these 
important habitats and wildlife are preserved, restored, and 
protected for generations to come.
    I yield back, Mr. Chairman.
    Mr. Markey. We thank the gentleman.
    The chair recognizes the gentleman from Georgia, Mr. 
Barrow.
    Mr. Barrow. Thank you, Mr. Chair. I will waive an opening.
    Mr. Markey. The chair does not see any other members 
seeking recognition to make an opening statement.

    STATEMENTS OF CHRIS REDDY, PH.D., ASSOCIATE SCIENTIST, 
DEPARTMENT OF MARINE AND GEOCHEMISTRY, WOODS HOLE OCEANOGRAPHIC 
INSTITUTION; EDWARD J. TRAPIDO, SC.D., FACE, ASSOCIATE DEAN FOR 
   RESEARCH, PROFESSOR AND WENDELL GAUTHIER CHAIR OF CANCER 
 EPIDEMIOLOGY, LSU HEALTH SCIENCES CENTER, NEW ORLEANS, SCHOOL 
   OF PUBLIC HEALTH; AND GINA SOLOMON, MD, MPH, EPA SCIENCE 
 ADVISORY BOARD, SENIOR SCIENTIST, NATIONAL RESOURCES DEFENSE 
   COUNCIL, ASSOCIATE CLINICAL PROFESSOR OF MEDICINE AT THE 
 UNIVERSITY OF CALIFORNIA AT SAN FRANCISCO, ASSOCIATE DIRECTOR 
   OF THE UCSF PEDIATRIC ENVIRONMENTAL HEALTH SPECIALTY UNIT

    Mr. Markey. We will turn to our very distinguished panel.
    Our first witness, Chris Reddy, is a marine chemist, and he 
is director of the Coastal Ocean Institute at the Woods Hole 
Oceanographic Institution. Dr. Reddy studies the impact of oil 
spills and other contaminants on marine ecosystems, with a 
focus on how contaminants disperse and decay over time.
    We welcome you, Dr. Reddy.
    Whenever you are ready, please begin.

                STATEMENT OF CHRIS REDDY, Ph.D.

    Mr. Reddy. Good afternoon, Chairman Markey, Ranking Member 
Upton and other members of the subcommittee.
    I thank you for the opportunity to speak to you about the 
British Petroleum spill. As you had said, I study oil spills. I 
am particularly interested in how nature responds to these 
uninvited guests. And I am currently or have studied oil spills 
that occurred in 1969, 1974, 1996, several in 2007, natural oil 
seeps off the coast of Santa Barbara and now currently the 
British Petroleum spill. And next week, I will be leaving for a 
12-day cruise funded by the National Science Foundation to 
investigate any oil that exists on the subsurface.
    Today I am going to speak briefly about dispersants and 
what has occurred in this spill in the last 52 days. When 
responders act on an oil spill, their ultimate goal is to 
reduce damages. And there are many ways that they have in their 
toolbox, anywhere from mechanically removing the oil to in situ 
burning or using dispersants. Dispersants are one of these 
toolboxes. They are often used after, when mechanical 
opportunities are not available, dispersants can be used when 
the weather is not as favorable than when there is mechanical 
activities--mechanical approaches are not available.
    Simply, dispersants are used to break up large pieces of 
oil into smaller droplets. The theory is that these large 
amounts of oil can affect the coastal areas and also wildlife 
that would be impacted with the surface. Breaking up produces 
small droplets of oil that get pushed below the sea surface, 
just a little bit below the sea surface. So it is not a removal 
of the oil per se, but more of a removing from one compartment 
to the other. From sitting on the surface of the oil, this is 
traditionally to putting small droplets below the surface. And 
ideally, those small droplets can get diluted and then broken 
down naturally under a term collectively we call weathering.
    Dispersants can carry their own risks, and there are 
significant tradeoffs in using them. If they are not used 
properly or effectively, then we are actually adding more 
chemicals to a problem that already exists in terms of an oil 
spill.
    In actuality, if they do work effectively, they also carry 
their own risks because we are adding chemicals below the sea 
surface--in this case, traditionally, when we add them right on 
top of the sea surface, we are exposing organisms to oil that 
live beneath the surface. So there is a large tradeoff.
    We have to consider, when they use these dispersants, do 
they want to reduce the damages that may happen because oil is 
sitting on the surface? Or do we want to--when we traditionally 
use them, or do we want to potentially expose with these small 
little droplets that you make anything that is living right 
below the sea surface?
    They have been used in the Gulf of Mexico multiple times. 
They have been considered a success. Right now there are two 
dispersants being used, Corexit 9500 and 9527. As of yesterday, 
there have been about a million gallons used. About 800,000 
have been sprayed from the surface. About 330,000 have been 
injected at the wellhead.
    While the amount of oil still continues to be difficult to 
constrain, we are looking at about 2 percent--I have picked 50 
million gallons that have spilled. If that is the case, then 2 
percent of the dispersants have been added to the total amount 
of oil that has spilled.
    When you consider that the United States has not had an oil 
spill greater than 1 million gallons in the last 20 years, then 
the release of 1 million gallons of dispersants makes this an 
unprecedented response to an oil spill. So we have an 
unprecedented oil spill, and we also have an unprecedented use 
of dispersants.
    To communicate a little bit more about dispersants, I would 
like to comment on the executive summary of a recent report 
that was released, entitled ``Deepwater Horizon Dispersant Use 
Meeting Report.'' This was held a couple of weeks ago at 
Louisiana State University. There were approximately 50 
scientists from academia, the Federal Government, industry, 
other countries as well. And collectively, they made a series 
of conclusions.
    I think the most important one to read today is their 
statement here, which is, ``It is the consensus of this group 
that up to this point, use of dispersants and the effects of 
dispersing oil into the water column has generally been less 
environmentally harmful than allowing the oil to migrate on the 
surface into the sensitive wetlands and near shore coastal 
habitats.''
    After reviewing this report and other studies on 
dispersants, I tend to agree with this finding. I am 
considerably more comfortable about using dispersants on the 
surface of the ocean, where we have added about 700,000 
gallons.
    I am going to reserve my judgment about the success and 
efficacy and potential damages of the 300,000 gallons that have 
been injected at the wellhead at the subsurface. This has never 
been done before, and I am waiting to see data that exists, 
water samples that would have been collected before and after 
the usage of these dispersants, before we can fully appreciate 
whether or not dispersants used on the subsurface have been 
effective or actually caused negative damages.
    It is noteworthy that there was a review about dispersant 
usage--or a book on dispersants by the National Research 
Council in 2005, and there was no discussion about deepwater 
usage of dispersants.
    In summary, the response and release of dispersants, though 
I suppose unprecedented, experts have recently concluded that 
the usage of them has been worthwhile. And my most important 
end point is that it is important that we continue to study 
this oil spill right now. This oil spill is a crime scene. We 
need to collect as much data as possible. Not only to be able 
to understand the impacts of this oil spill right now, but also 
use it as a scientific tool to study future spills. I thank you 
for allowing me to speak today.
    [The prepared statement of Mr. Reddy follows:]

    [GRAPHIC] [TIFF OMITTED] T7909A.001
    
    [GRAPHIC] [TIFF OMITTED] T7909A.002
    
    [GRAPHIC] [TIFF OMITTED] T7909A.003
    
    [GRAPHIC] [TIFF OMITTED] T7909A.004
    
    Mr. Markey. Thank you, Doctor, very much.
    Our next witness is Edward Trapido. He is associate dean 
for research and Wendell Gauthier Chair for Cancer Epidemiology 
at the Louisiana State University School of Public Health. He 
is responsible for coordinating the entire research effort of 
the Louisiana State University Health Sciences Center related 
to the Deepwater Horizon Gulf oil spill.
    Dr. Trapido's research focuses on cancer incidence and 
prevention in humans.
    We welcome you, Doctor. Whenever you are ready, please 
begin.

          STATEMENT OF EDWARD J. TRAPIDO, SC.D., FACE

    Mr. Trapido. Thank you, Chairman Markey, Ranking Member 
Upton, and distinguished Congressmen and women.
    Let me begin by saying that I am a cancer epidemiologist 
working in public health, by training and by experience. I am 
also a resident of Orleans Parish, and I live three blocks away 
from the Mississippi River. So this has direct bearing on my 
life as well as the lives of countless other people in 
Louisiana and in the other Gulf Coast States for the moment.
    Prior studies of the effects of oil spills have been cross-
sectional in nature. What I mean by that is they, at one point 
in time, classified people as to their disease and as to their 
exposures. There haven't been follow-up studies. There haven't 
been what we call cohort studies which have followed people who 
have been exposed to the oil spill over a period of years.
    You might say, well, why is that important? As a cancer 
epidemiologist, I can tell you that cancer is a disease of long 
latency, meaning it takes up to 20 or 30 years for cancers to 
be clinically detectible after exposures have occurred. It 
doesn't always take this long. Sometimes it is quicker. If 
people already have some pre-existing condition that they may 
have inherited or are smokers or have been exposed 
occupationally before, then this might be the key that drives 
them to a much quicker diagnosis.
    Looking at this as a potential public health crisis, there 
are reasons to be concerned. The oil contains benzene, 
benzopyrene, arsenic compounds, polycyclic aromatic 
hydrocarbons. And all of these are classified as Class I 
carcinogens by the International Agency for Research on Cancer, 
which is part of the United Nations.
    In addition to that, these chemicals can enter the food 
chain, and we don't know the long-term consequences of that in 
terms of cancer because, as I say, long-term studies have not 
been done.
    It also clearly increases stress, and you have to realize 
that we have got parishes in southeast Louisiana that, in the 
last 5 years, have already had three hurricanes, and now they 
are having to be exposed to this and are losing their 
livelihoods. So the amount of stress is incredible, and the 
likelihood that will result in the some short- and long-term 
effect is unquestionable.
    There are genotoxic and endocrine effects associated with 
these chemicals. And we know from the literature that these 
chemicals can result in acute myeloid leukemia, multiple 
myeloma, lung cancer, and chronic lymphocytic leukemia.
    So it is not just the population--it is not just the people 
who have been on the oil rigs. It is not just the first 
responders. It is not just the health workers and the people 
involved in cleanup. It is the communities.
    It is the communities that are around the parishes and so 
what we have--and within the communities, we have got pregnant 
women. We have got young children. There are some very 
vulnerable groups, especially vulnerable groups, that have to 
be studied and have to be followed for years.
    We need to have unexposed people, and there certainly are. 
I don't want to say there will be cancer in 20 years. That is 
why we need to study this. We suspect, we have reasons to be 
concerned. But we don't know for sure that there will be excess 
cancers, but there is enough to make us feel that it is worth 
studying.
    What we need is fast access. We have all said in one way or 
another, this is day 52, and yet we haven't been able to go in, 
interview people, get biological samples, get specimens from 
the oil, from the dispersants, from the water, from the air. 
And time is of great importance in terms of measuring exposure.
    We need to get in. We need to be able to collect this 
information and to begin to follow up people. We have, for 
cancer at least, a robust way of capturing all cancers that 
occur in the United States and in Louisiana. It is because 
there is a tumor registry funded by the National Cancer 
Institute. In other States, it is either CDC or NCI that fund 
these.
    However, we don't have a robust surveillance system for 
other conditions that may result over the course of time from 
the oil spill, and we desperately need to have that in place.
    And then let me just add one more point. We are now in 
hurricane season. We think we know where the oil spill will go 
in the absence of a hurricane. We know the Gulf Coast always 
ends up getting a tropical storm or hurricane, some of them 
severe. So everything I have said remains the same, except we 
really don't know yet what the target population will be.
    We need buy-in from the community. We need to have 
confidentiality issues addressed because people may be afraid 
to talk, that it will interfere with their careers, that it 
will interfere with their ability to get economic benefits or 
health benefits or their legal rights. And we need to not pull 
these resources from helping the communities and from other 
important research.
    So, just by way of summary, I want to say that there is a 
potential public health crisis awaiting us. We see the acute 
effects. We need to be measuring the long-term effects. Now is 
the time to get in and have access. Thank you very much.
    [The prepared statement of Mr. Trapido follows:]

    [GRAPHIC] [TIFF OMITTED] T7909A.005
    
    [GRAPHIC] [TIFF OMITTED] T7909A.006
    
    [GRAPHIC] [TIFF OMITTED] T7909A.007
    
    [GRAPHIC] [TIFF OMITTED] T7909A.008
    
    Mr. Markey. Thank you, Doctor, very much.
    Our final witness is Dr. Gina Solomon, who is a senior 
scientist in the health and environmental program of the 
National Resources Defense Council and is a specialist in adult 
internal medicine, preventive medicine and occupational and 
environmental medicine. She also serves as an associate 
clinical professor of medicine at the University of California 
at San Francisco, where she is the director of Occupational and 
Environmental Medicine Residency Program and associate director 
of Pediatric Environmental Health Specialty Unit.
    We welcome you, Dr. Solomon.

               STATEMENT OF GINA SOLOMON, MD, MPH

    Dr. Solomon. Thank you, Mr. Chairman, and members of the 
subcommittee. I am very happy to be here to talk about this 
very important topic today.
    And I am very happy to see that this subcommittee is 
recognizing that the BP Gulf oil disaster is not just a problem 
for wildlife and ecosystems but also very much a problem for 
human health. I have been down in the Gulf Coast over the past 
few weeks talking with fishermen, workers, community residents, 
all along the coast of Louisiana.
    And I have been reviewing available data from BP, EPA and 
other agencies, and I am quite concerned about both immediate 
short-term and also longer-term health issues in this area.
    The three main health concerns that I have identified are 
air quality, direct skin contact and toxicity from the oil, and 
the concerns about seafood contamination.
    On the air quality issue, according to the National Academy 
of Sciences, an estimated 40 to 70 percent of the oil that 
bubbles to the surface evaporates, and the evaporated oil 
creates a vapor that blows with the wind. Depending on the 
temperature and wind direction, it can blow into areas where 
people are working or onto the coastline and affect local 
residents. The vapor phase contains volatile organic compounds, 
chemicals such as benzene and toluene, which are of significant 
health concerns. Benzene is known to cause cancer in humans. 
Toluene is a neurotoxic chemical.
    It also contains semi-volatile organic compounds, such as 
naphthalene, which is classified by the National Toxicology 
Program as reasonably anticipated to cause cancer in humans. It 
also contains a hydrogen sulfite gas, which comes off of the 
oil, which is neurotoxic and also a powerful respiratory 
irritant.
    And other issues are happening as part of the cleanup. Oil 
is being burned off, which creates particulate matter, which is 
both toxic to the cardiac and respiratory systems and 
contributes to premature death. And dispersant chemicals, as we 
all know, are being applied in unprecedented amounts. And these 
chemicals are insufficiently studied but have been linked to 
nose and eye irritation and headaches and vomiting.
    The greatest risks are to the workers that are out there, 
closest to the oil and the dispersants. These workers have not 
been provided with respirators, and that is a significant 
health concern to many people.
    BP has released finally some air-monitoring data. The air-
monitoring data, in my opinion, are of insufficient but also 
somewhat disconcerting because there are elevated levels as 
documented by BP of both benzene and 2-butoxyethanol, which is 
one of the dispersant chemicals, over the level that the 
National Institute of Occupational Safety and Health considers 
to be safe. The NIOSH level is set for an 8-hour work day. Of 
course, as we all know, these guys who are doing the clean up 
out there are really 24 hours a day.
    In addition, EPA has actually been doing an admirable job 
of monitoring air quality along the shoreline. That has 
actually helped to reassure myself and some of the community 
residents that the air quality is actually not as bad as feared 
in many of the shoreline areas. But there are still some 
disconcerting increases, short-term elevations in air quality 
concentrations that could certainly explain many of the odor 
complaints and even many of the health complaints that we are 
hearing from community residents.
    The other thing I am concerned about is skin contact 
because we have photographs of workers doing clean up on the 
beaches without gloves or adequate protective suits. We have 
photographs of children swimming in oil contaminated areas and 
people touching tar balls with their bare hands. These 
chemicals can cause dermatitis, folliculitis and have been 
linked to skin cancer over the long term. So there needs to be 
more public awareness and outreach about those issues.
    On the seafood safety issue, just briefly, nearly 20 
percent of the Gulf is now already closed to fishing. Plumes 
are still spreading. And there is a near-term need for a 
clearer process for making sure that the nutritious fish, 
shellfish and shrimp are available in the U.S., but that that 
food supply is protected. And there needs to be a clearly laid 
out process for the public about who is in charge there and to 
make sure that oil-tainted seafood doesn't get onto the market.
    But in the longer term, there are going to be issues about 
setting criteria for reopening areas or new closures. Those 
need to be clearly set, and the metals and some of the PAHs in 
the oil have not even begun to bioaccumulate yet. They will 
become a much bigger problem in the future.
    I want to thank you very much for allowing me to speak here 
today.
    [The prepared statement of Dr. Solomon follows:]

    [GRAPHIC] [TIFF OMITTED] T7909A.009
    
    [GRAPHIC] [TIFF OMITTED] T7909A.010
    
    [GRAPHIC] [TIFF OMITTED] T7909A.011
    
    [GRAPHIC] [TIFF OMITTED] T7909A.012
    
    [GRAPHIC] [TIFF OMITTED] T7909A.013
    
    [GRAPHIC] [TIFF OMITTED] T7909A.014
    
    [GRAPHIC] [TIFF OMITTED] T7909A.015
    
    [GRAPHIC] [TIFF OMITTED] T7909A.016
    
    [GRAPHIC] [TIFF OMITTED] T7909A.017
    
    [GRAPHIC] [TIFF OMITTED] T7909A.018
    
    [GRAPHIC] [TIFF OMITTED] T7909A.019
    
    Mr. Markey. Thank you, Dr. Solomon, very much.
    The chair will recognize himself for a round of questions.
    Dr. Trapido, you said that you are being denied access to 
the water, to the samples, which you need in order to make the 
early evaluations. Could you talk a little bit about that? And 
who is denying you access?
    Mr. Trapido. I don't mean to say that I have personally 
been denied access. I mean that we need to be able to go in a 
systematic way of getting logs of people, names of people who 
have been on the vessels, speak to the people on the vessels, 
speak to the cleanup workers, the first responders.
    Mr. Markey. So when you say ``we,'' you mean no one is 
being denied access?
    Mr. Trapido. That is right.
    Mr. Markey. And who is making that decision that there is 
no access to these people who have been exposed to these 
chemicals? Who is making that decision?
    Mr. Trapido. I am not sure, to be honest. I just know that 
when we have made attempts to get lists of individuals, get 
rosters, we have been told that they are not available at this 
point.
    Mr. Markey. Will you work with our committee?
    Mr. Trapido. Absolutely.
    Mr. Markey. Tell us what you need, and then we will ensure 
that you get access to the information you need because you do 
believe it is critical as to what is going to occur inevitably, 
in your opinion, in the long term.
    Thank you for that.
    Dr. Solomon, do you believe there is a problem with regard 
to access to the information which you need in order to be able 
to make these early samplings to be able to identify long-term 
health risks?
    Dr. Solomon. I do believe there is a serious problem, and 
the problem extends to data on monitoring. We have been pushing 
for 2 months now for BP to release data on air monitoring. We 
finally got a little bit this week, but it is by no means 
sufficient.
    We have been pushing for more data on what is actually in 
the oil itself that is coming up. What is the fraction of 
benzene? And obviously, the dispersants have been a huge 
problem with the products that were being used were not being 
publicly disclosed.
    Mr. Markey. If you will work with the committee to identify 
the information you need, we will make sure that we use the 
power of this committee to ensure that you and others like you 
gain access to that information at this critical, still 
relatively early, point in the process, given the long-term 
health concerns.
    It is BP's spill. But it is America's ocean. And it is the 
American people who are going to be exposed to the 
consequences, especially the people who live in Louisiana and 
in the Gulf.
    Dr. Reddy, 2 days ago NOAA Administrator Jane Lubchenco 
confirmed that plumes of oil have been found as far as 3,300 
feet below the surface, stating we have always known that there 
is oil under the surface. Yet, just a few weeks ago BP's CEO, 
Tony Hayward, stated that all the oil is on the surface; there 
aren't any plumes. And yesterday BP's COO, Doug Suttles, denied 
it again. Do you agree that oil, gas and dispersants could be 
suspended in plumes or clouds thousands of feet below the 
surface of the ocean?
    Mr. Reddy. Yes, Mr. Chairperson. I have seen that 
analytical data from the samples that were collected as part of 
Dr. Lubchenco's press release. And it appears to be quite 
sound, and it was done in the highest quality. So I believe 
that there is subsurface oil in the region.
    Mr. Markey. Dr. Reddy and Dr. Solomon, it is my 
understanding that naturally occurring bacteria eat some oil 
and gas, and as they do that, they also use up oxygen that is 
needed for plants and animals. When this happens deep in the 
ocean, there is no way to quickly replace the oxygen that is 
used.
    Dr. Reddy, is it possible that this process could reduce 
the oxygen to levels that cause marine plants and animals to 
die in certain areas?
    Mr. Reddy. There is no doubt that microbes are eating the 
oil. In fact, some of my colleagues who are finding oil in 
subsurface are doing it by looking for minima amounts of 
oxygen. So they are actually not finding the oil when they are 
trying to sample it. They are using, the best way is to see 
where there is the least amount of oxygen.
    Whether or not the microbes will be able to have the 
capacity to eat all the oil to a point where there is no oxygen 
is not known. But clearly, any oxygen below what should be 
there is less than ideal. And you are correct; it will be 
difficult for oxygen to get replaced from water at depths of 
3,300 feet.
    Mr. Markey. And, Dr. Solomon and Dr. Reddy, is it also 
possible that the oil, the gas and dispersants contained in 
these plumes could poison the marine plants and animals that 
are exposed to them?
    Dr. Solomon.
    Dr. Solomon. Yes, it is, in my opinion, highly likely that 
any living thing that is exposed to high enough concentrations, 
obviously if it is oil and dispersant mixtures, are very likely 
to be poisoned.
    The other question that is also important is that many of 
these creatures will be damaged but may not die and, over time, 
may accumulate chemicals in their bodies. And in particular, 
the heavy metals in the PAHs are chemicals that may not kill 
the fish and other marine organisms outright but will have 
long-term health effects on the health of the marine ecosystem 
and also on anyone who consumes seafood.
    Mr. Markey. Let me ask, finally, to the two of you, so I 
would ask both Dr. Solomon and Dr. Reddy this. We are only just 
starting to characterize these plumes. We don't know how many 
there are or how far or how deep they extend in the ocean. Is 
it possible that entire generations of species needed to 
sustain the food chain in the Gulf of Mexico could be 
annihilated by this spill in some locations?
    Dr. Reddy.
    Mr. Reddy. I would reserve making any types of long-term 
comments until I see more data. There is a significant effort 
out in the ocean right now collecting samples to characterize 
this region, and I hope to do so next week.
    I think when we have a greater grasp on the distribution of 
oil out there, then we can start to get a feeling. It is most 
important for us to grasp that it is the dose makes the poison 
and that the presence of oil alone--although never is ever 
good--has to be put into play before we kind of get an idea or 
a snapshot of the long-term impacts. But certainly the presence 
below the sea surface is less than ideal.
    Mr. Markey. Dr. Solomon.
    Dr. Solomon. This is not as close to my area of expertise, 
because I am not an expert on the marine ecosystem.
    But on the toxicology front, these chemicals are present, 
obviously, unfortunately, in quite high concentrations and are 
widespread in the Gulf, and there are many endangered species 
in the Gulf of Mexico that are at high risk. And many of them 
are ones that my understanding is they don't travel that far, 
so they may not be able to get away. So we will likely be 
seeing major impacts on the ecosystem and also on fisheries for 
a very, very long time to come, I am afraid.
    Mr. Markey. Thank you, Dr. Solomon.
    My time has expired.
    The chair recognizes the gentleman from Michigan, Mr. 
Upton.
    Mr. Upton. Thank you, Mr. Chairman.
    Dr. Reddy, walk us through what your analysis is on what 
should have happened with the use of the dispersant Corexit? 
Should that have been approved, or should the letter have come 
back and told BP not to go ahead with it?
    Mr. Reddy. Well, they have to get permission from the 
Federal on-scene coordinator in order for them to move forward 
I believe.
    Mr. Upton. It was on the list of 12 originally, right, was 
it not? I think they had 12 substances, and that was one.
    Mr. Reddy. There were two that were used. In fact, 
yesterday they disclosed the full formulations of both of them, 
which will be quite useful for us to understand and measure and 
look for these dispersants.
    If you don't know what you are looking for, it is very hard 
to measure it.
    The decisions to use dispersants is very difficult, and 
there--this is a total--there is no win-win here. You have 
nature, which doesn't take direction well, and you have oil, 
which is an uncontrollable beast, and you have to make 
decisions about using them. The on-site people decided to use 
them and are continuing to use them under their best judgment.
    Mr. Upton. How quickly does it work? I mean, we have seen--
--
    Mr. Reddy. It is pretty quick. If you have seen any of 
those pictures where--I mean, if you drop some Dawn detergent 
on a sheen of oil, you can see it break open. In theory, the 
beginnings of that idea, concept. So it is relatively rapid in 
that respect.
    Mr. Upton. In your opinion, does it work as well under 
water as it does at the surface or----
    Mr. Reddy. I reserve judgment about the success of using 
the dispersants underneath the sea surface, one, because it has 
never been done before. So it is, again, this term 
unprecedented becomes a little laborious, but nevertheless, we 
have used 300,000 gallons of dispersant below with about 50 
million gallons of oil. So, whether it was worth it, effective, 
and whether there were any damages, we have to see what type of 
data that has--the samples were collected when they were doing 
this, and the data is streaming out, slowly but surely. Because 
it takes some time for analysis to come through. I look forward 
to looking at that data, and I can get back to you about what I 
think are the outcomes of that.
    Mr. Upton. I look forward to that. And, too, as we think 
about the hurricane season, which in essence could be upon us, 
what are your thoughts in terms of what is going to happen, 
based on the chemicals that have been used up to this point, 
the failure to stop the flow? What is going to happen?
    Mr. Reddy. It just makes things--at this point, we have so 
many things out of our control for ourselves in terms that the 
oil continues to flow. It is difficult to corral all this oil. 
And now that it is showing at the subsurface, you have another 
factor. The hurricane factor is just something that we just 
can't even comprehend. It may not make a big impact. It may 
make a large one. Ideally, it just doesn't happen.
    Mr. Upton. What should be happening with all these 
different underwater plumes that have been reported? What is 
the best way to deal with that?
    Mr. Reddy. There is nothing you can do. I would believe----
    Mr. Upton. Or if you put Corexit down below and broke it up 
and sent it to----
    Mr. Reddy. It already is dispersed. So the Corexit, most of 
those plumes are the result of either natural dispersion--you 
know, you have to think about this oil coming out of this 
wellhead, and it is pretty violent. So it is breaking up some 
portion of them into small droplets, which I think is a source 
of these subsurface plumes.
    Unfortunately, at 3,300 feet below the surface, if this 
plume and perhaps others like that, there is really not much 
you can do to do about that. What we hope for them is to 
continue that nature acts upon them and breaks them down and, 
with time, that they get diluted until they become a signal 
which is not as damaging.
    Mr. Upton. Is there any sense they are beginning to 
migrate?
    Mr. Reddy. There are a variety of research vessels that 
have been vectored and are collecting samples as we speak, and 
I hope to do the same next week. And I think at some point we 
will be able to start to have kind of a three-dimensional image 
of how these plumes are at one point and then how they migrate, 
and then also how the oil changes with time. With time, oil 
weathers; and in fact, what is somewhat comforting is that some 
of the more dangerous chemicals can also be broken down by 
nature, and so there is some comfort that this will happen.
    Mr. Upton. Have you been able to date from some of the 
early flow, from 45 to 50 days ago, to where we are at 52 days 
in terms of any progress breaking up based on what chemicals 
might have been used or dispersants? Is there any marked 
progress?
    Mr. Reddy. No, not at the time. I have looked and analyzed 
samples that were collected about 50 miles away from the spill 
zone, and they have been significantly weathered either by some 
of the more harmful chemicals that have been spoken about by my 
colleagues, and either have been evaporated away or they have 
been washed into the water column. At this time I haven't had 
an opportunity to closely look at the samples. But the oil has 
changed a lot since it spilled. But trying to put a time as to 
how old one sample is relative to the other is quite difficult.
    Mr. Upton. I yield back.
    Mr. Markey. The gentleman's time has expired. The Chair 
recognizes the gentleman from California, Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Dr. Trapido, how long do you believe that people that are 
exposed to the vapors, to the physical contact, the food 
contamination, how long should they be monitored? Is there an 
effective way to tell when that monitoring is done or should be 
concluded?
    Mr. Trapido. My sense is that individuals need to be 
monitored for at least 20 years, perhaps longer. Now, although 
that sounds like an impossibility, let me assure you that there 
are a large number of cohorts studied that are going on for 
that length of time. They only become more valuable over the 
duration of time.
    You know, if we have a woman who is pregnant and gives 
birth to a child, we have to follow that child as that child 
grows up. And there is no magic moment when we say, oK, we are 
done, there can't be any more damage. So that, in essence, it 
is following people for what we consider to be an average 
latency period of about 20 years. I think you would feel fairly 
safe at that point that you had seen the bulk of anything that 
would develop in excess. We know what rates of cancer are 
expected to occur in any population, so we should be able to 
detect increases above those expected rates over the course of 
time.
    Mr. McNerney. So basically what you are saying is that we 
need to hold BP accountable for health monitoring 
responsibilities for a good 20 years.
    Mr. Trapido. That would be a fair rewording of my thoughts 
for sure.
    Mr. McNerney. Thank you.
    Dr. Reddy, I am going to follow up a little bit on one of 
the chairman's questions about the permanent damage and decline 
and extinction of the food chain in the Gulf there. And I know 
you don't have an answer to that, but, again, how long will it 
take for us to understand what those effects are and how 
permanent they are, just to get some idea of what is involved 
here?
    Mr. Reddy. I think, as you mentioned, it will be difficult 
to predict at this time. I think what will happen is perhaps in 
the next 4 to 8 months, when there is sufficient data that has 
been collected and evaluated, groups of interdisciplinary 
scientists will be able to get perhaps the first kind of views 
about how long and potentially the damages that have occurred.
    At this point, you know, it is so difficult to constrain 
the damages. What we see only on TV is perhaps only just a 
small snapshot. And so we have to do a really strong case of 
bookkeeping and accounting of what has happened, and also how 
things may have changed in the cellular, molecular level, and 
with that we can start to get an idea.
    As much as I would like to give you an answer, I think 
perhaps in the next 6 to 8 months a team of experts will be 
able to give a better idea.
    Mr. McNerney. Thank you. Dr. Trapido, what are the most 
effective steps that we can take to prevent long-term health 
impacts to people that are in the vicinity--the workers, the 
residents?
    Mr. Trapido. That is a very good question, and I wish there 
were a very easy answer to that. I think people, number one, 
need to take care of their already--the risks they can control. 
There is a good chance, for example, that tobacco use will 
compound the effects. There are things with exercise and diet 
that people have to do. But beyond that, we need to look at 
stress, and those that can be addressed now. We need to have a 
surveillance system in place that can begin to monitor early 
signs of potential problems.
    I mean, if somebody has been exposed at this point, there 
is not much we can do other than observe them. And we can look 
for the diagnoses that we know about, but this is unprecedented 
in--sorry to use that again. This is unprecedented in terms of 
the particular exposures to length of time that the people are 
being exposed to it.
    I can only say that I worked--I was the NCI representative 
to the workers after 9/11 to follow up the New York City 
workers. And once people had been exposed, it was very 
difficult to know what to tell people to do, because people 
obviously get concerned and they start to have symptoms. But 
what needed to be done there was to have a good surveillance 
system. And, fortunately, there was great collaboration from 
all the groups, from the communities, from the unions. There 
was not a BP equivalent in that case.
    So what we need to do is to begin to monitor them, to 
interview them, to deal with their current problems of stress, 
because stress will only increase their likelihood of 
developing these conditions, and to have them manage the 
cancer-related risk factors that they can now manage.
    Mr. McNerney. Thank you. I guess, Mr. Chairman, we have our 
work ahead of us in putting those systems in place. I yield 
back.
    Mr. Markey. I thank the gentleman very much.
    The chair recognizes the gentlelady from the State of 
California, Mrs. Capps.
    Mrs. Capps. Today, the Center for American Progress 
released a report calling for the administration to take total 
control of the public health response away from BP. In this 
report, they note that the evidence is very clear that we 
cannot afford to leave any part of this important response to 
the very corporation that caused the problem in the first 
place.
    A couple short brief questions to ask you, Dr. Solomon, 
just for the record.
    Dr. Solomon, do you trust BP to handle the public health 
response and adequately protect the cleanup workers?
    Dr. Solomon. No. I don't trust BP to protect the cleanup 
workers or handle the public health response.
    Mrs. Capps. In your opinion, who should be in charge of the 
public health response?
    Dr. Solomon. The public health response could be guided by 
a consortium of Federal agencies, with a leader. So EPA has 
been doing an excellent job and has been constantly improving, 
and people from CDC and NIHS have also been very involved and 
they are quite capable.
    Mrs. Capps. So from within the government?
    Dr. Solomon. Absolutely.
    Mrs. Capps. I want to just continue with you one more 
question. According to BP's offshore monitoring plan, workers 
are allowed to stay in an area when vapors are at a level four 
times higher than the accepted practice to prevent an 
explosion.
    Should we be concerned that workers will be exposed to very 
high levels of toxins from a public health perspective? You did 
mention this in your remarks, but I would like to give you a 
chance to go further into it if you would, please. These 
workers are often working more than 8 hours a day out in harsh 
conditions, not typically even measured for laboratory tests.
    Dr. Solomon. The BP sampling plan and the data that were 
released this week gave us a little window of information into 
what is going on out there in the water, and it was a 
disturbing one.
    First of all, in the sampling plan, the plan focuses on 
workers on stationary rigs and on large vessels. And as you 
know, many of these large vessels are multiple stories high; 
the workers are not right at water level.
    The smaller boats were referred to in the sampling plan 
only obliquely as ``other vessels,'' and were deemed reduced 
priority, which means that there really wasn't an effort or 
anything within the BP sampling plant to monitor for the health 
and safety of the people on the fishing boats. And there is an 
estimated 1,500 people out there on these fishing boats that 
are much closer to water level and therefore right in the thick 
of things, literally. And as you yourself have pointed out, the 
workers have not been provided with respirators.
    The levels of concentration to chemicals that BP is 
tolerating are quite high, both for explosive potential and 
also for toxicity, and are ones that may perhaps be legal under 
some of the outdated OSHA standards, but are certainly not safe 
for the workers.
    Mrs. Capps. Thank you.
    Dr. Trapido, it was very disheartening to hear that long-
term epidemiological studies on the human health effects of oil 
spill exposure seem to be nonexistent. I will let you verify 
whether or not--you are nodding.
    Mr. Trapido. That is absolutely the case.
    Mrs. Capps. I heard you clearly.
    One of the keys to this sort of study, as you mentioned, is 
to start enrolling people in the study and taking exposure 
measurements as soon as possible. Do you know what kind of 
monitoring and surveillance is currently underway?
    Mr. Trapido. There is no systematic monitoring, as far as I 
can tell. There are reports of people going to local doctors 
and clinics for acute effects, but there is not a systematic 
process in place. And so what we get is anecdotal data, and it 
is hard to make conclusions based on those.
    And my sense, although this is a sense partially from the 
media, is that people are a little bit afraid to publicly come 
forward and state that they have a problem for fear that they 
may lose their employment, they may lose their income. And so 
we have got to be able to assure the workers and the residents 
that if they need help for this, health care, that they can get 
it without fear of reprisal or loss of their legal rights.
    Mrs. Capps. Thank you. Just one quick follow-up. Do you 
know, has BP created any kind of registry to track who is even 
being deployed to do the cleanup work, those whom they are 
hiring?
    Mr. Trapido. If they have, I have not been made aware of 
it. I do not believe there is, but I would suspect that they 
know. They must have a roster of everybody who has been on any 
of the vessels they have either owned or hired workers for.
    Mrs. Capps. And you would find that information very 
important.
    Mr. Trapido. Absolutely.
    Mrs. Capps. And these would be the people you would like to 
see examined.
    Mr. Trapido. Among the groups.
    Mrs. Capps. Among the groups for sure.
    Thank you, Mr. Chairman.
    Mr. Markey. I thank the gentlelady.
    The gentleman from North Carolina, Mr. Butterfield, is 
recognized.
    Mr. Butterfield. Thank you very much, Mr. Chairman. And let 
me thank the witnesses for their testimony today.
    Mr. Chairman, I would like to go back to the question of 
dispersants, because I think this is a very important issue. It 
provides an example of the weakness in our chemical regulatory 
scheme.
    BP chose to use two dispersants, as I am told, COREXIT 9500 
and 9527, which have not been determined to be safe. In fact, 
the ingredients in those two dispersants were not revealed 
until last week. Nalco, the manufacturer of the chemicals, had 
claimed that the ingredient list was proprietary, and only 
waived that claim this week in response to pressure from our 
EPA.
    We have seen these types of claims before for other 
chemicals regulated under the Toxic Substances Control Act. We 
know that chemical companies are overclaiming confidentiality, 
and that EPA is trying to do a better job of policing those 
claims. It is disturbing that EPA did not have the power to 
release this information, and that the public had to wait for 
the manufacturer to waive the claim. The Commerce Trade and 
Consumer Protection Subcommittee has been examining this issue 
in the context of TSCA reform. So I would like to ask our 
witnesses just a few questions to get a sense of whether the 
confidentiality claims surrounding these dispersants are 
business as usual in the chemical industry.
    Let me start with you, Dr. Solomon. Does it surprise you 
that the manufacturer claimed that the ingredient list was 
proprietary?
    Dr. Solomon. No. It doesn't surprise me at all. In fact, as 
a physician, I am frequently in a situation where I am seeing 
patients exposed to various products or chemicals in their 
workplace or other environments; and when I try to get 
information about the ingredients of those products in order to 
counsel my patient, I am told that the list is proprietary. I 
am unable to get the information.
    Mr. Butterfield. Well, have you now reviewed the list of 
ingredients that the EPA published this week?
    Dr. Solomon. Yes, I have.
    Mr. Butterfield. Would you say that the list is easy to 
understand and comprehend to the layperson? Or is it really 
just something that scientists could use to analyze the safety 
of these chemicals?
    Dr. Solomon. The information would be very difficult or 
impossible for the layperson to understand, but it would be 
very useful to scientists.
    Mr. Butterfield. So the people that were really kept in the 
dark about the ingredient lists are scientists, like you, who 
can make an assessment regarding the safety of these 
ingredients. Right or wrong?
    Dr. Solomon. That is correct. Though, of course, the role 
of the scientist is then to communicate the information to the 
general public and others.
    Mr. Butterfield. Well, I am told that BP selected these 
particular dispersants from a list of approved dispersants. EPA 
has looked at the efficacy and toxicity of the chemicals, but 
has never determined that they are safe. In fact, we found out 
very quickly that there are safer alternatives.
    Dr. Solomon, let me ask you this. As someone who has worked 
on chemical policy and studied hazardous chemicals, does it 
surprise you that the safety of these dispersants has not been 
determined?
    Dr. Solomon. No. That doesn't surprise me at all. In fact, 
many--most chemicals that are on the market today have never 
been fully tested for their toxicity to humans or the 
environment.
    Mr. Butterfield. Do you think that companies like BP or 
scientists like yourself have enough information available to 
effectively evaluate the safety of these chemicals or their 
alternatives?
    Dr. Solomon. No. I don't believe that scientists or 
physicians or the general public have the information that we 
need in order to assess safety of chemicals.
    Mr. Butterfield. Let me try this one. As a scientist, are 
you concerned that BP has been using large amounts of these 
chemicals without a determination that they are safe and 
without sharing the ingredient list?
    Dr. Solomon. Yes. I am very concerned that these chemicals 
are being applied by workers who are not necessarily being 
adequately protected, and they are drifting potentially into 
inhabited areas.
    Mr. Butterfield. That is not good. Do you think that our 
chemical regulations are sufficient to ensure that we know the 
risk of the chemicals that we use?
    Dr. Solomon. No. I don't believe that the current 
regulations do that.
    Mr. Butterfield. Well, I have got about 50 seconds. Dr. 
Trapido, let me try you for just a moment. As you stated 
earlier, exposure is time-dependent, and the residents of 
communities affected by air and water contamination from the 
spill will need to be monitored, you said, over several years 
in order to obtain a full understanding of the effects of the 
oil spill on the health of the affected communities.
    In your opinion, sir, what organization or organizations 
should oversee the long-term study of the residents of those 
affected? And how should this effort be coordinated?
    Mr. Trapido. I think this effort needs to come out of HHS, 
and then they can decide whether it belongs to CDC or NIH or 
CNS. But all these require a fair amount of scrutiny. I would 
prefer to see it there than in the regulatory agencies, because 
the regulatory agencies can provide information to the 
scientists in HHS.
    But I want to make a statement that the affected 
communities need to have a voice in this. We actually learn a 
lot from our parish presidents about what is really going on 
versus what we may hear on the nightly news. And so I think 
that while the government needs to play a role, and an 
important role, in managing and making sure that the science is 
sound and that it is not affected by the fact that BP may be 
actually supplying the funds for it, I think it is very 
important that the communities have a voice in this. And 
ultimately, you know, we are all here to serve the communities.
    Mr. Butterfield. Mr. Chairman, I thank you for your 
indulgence. This is pretty serious stuff, and I thank you for 
convening this hearing today. And we want to assure you and the 
American people that we are going to fulfill our 
responsibility. Thank you. I yield back.
    Mr. Markey. Thank you, Mr. Butterfield.
    The gentleman from Texas, Mr. Burgess, is recognized.
    Dr . Burgess. Thank you, Mr. Chairman. I apologize for 
being out of the room during part of the hearing.
    Director Solomon, let me just be sure that I understand 
correctly. Now, you reviewed the EPA monitoring being done down 
in the Gulf region; is that correct?
    Dr. Solomon. The EPA monitoring? Yes.
    Dr . Burgess. And if I understand correctly, the EPA's 
assessment is that, with regard to the dispersants, there were 
no long-term health effects at issue?
    Dr. Solomon. The EPA has just begun to do some monitoring 
for some of the dispersant chemicals. So far, they have mostly 
been focused on the vapors that come off of the oil itself.
    Dr . Burgess. We heard testimony from Dr. Wilma Subra on 
Monday in Chalmette. And maybe she was talking about the off-
gassing or the out-gassing of the vapors, but my impression was 
from her that the EPA said that there was--at present levels, 
there was no danger.
    Dr. Solomon. The EPA has said that they think that there is 
a very low likelihood of long-term health effects from the 
levels that have been measured so far.
    Mr. Burgess. Is there more the EPA could be doing about 
this?
    Dr. Solomon. Yes. Quite a few things that the EPA could be 
doing better. Some of them, the EPA has been responsive to 
community concerns and has made some changes in their sampling 
efforts and their public communication, but there is still more 
that can be done.
    Mr. Burgess. Such as?
    Dr. Solomon. EPA has only recently begun to respond to odor 
complaints, but they have not yet actually had community 
meetings to collect information from community residents.
    Mr. Burgess. I don't mean to interrupt you. Do you know if 
they have made canisters available to people in those 
communities to collect air samples at the time the odors are 
present?
    Dr. Solomon. No. My understanding is that community members 
don't have canisters. EPA is the only entity deploying those.
    Mr. Burgess. I can see where that would be a problem. I am 
sorry. Continue.
    Dr. Solomon. In addition, there is more need for 
meteorological monitoring and modeling of where the air plumes 
may be going. We have heard about the need to model where the 
subsurface plumes are going, but we also need to know where the 
wind is blowing, and then target sampling to those areas along 
the coastline. Right now, that is not happening as well as it 
should be. And in addition, it would be very helpful to provide 
publicly any information about exactly where the dispersants 
are being applied offshore. This would help also with 
predicting where they might go.
    Mr. Burgess. Could I ask you a question about that? The 
dispersants at one time were being placed subsea; but with the 
collection apparatus on top, they can no longer do that. Is 
that correct? Those dispersants are not being used currently, 
are they?
    Dr. Solomon. My understanding is that there is still 
subsurface application going on as well as surface application 
of dispersants.
    Mr. Burgess. But the surface application is aerials, so 
that those flight patterns should be known to someone; is that 
correct?
    Dr. Solomon. Exactly. So the aerial application of 
dispersants is the one that could generate air contaminants 
that could pose a hazard to local communities.
    Mr. Burgess. Well, you and Mr. Butterfield were talking 
about alternatives, safer dispersants than the ones that are 
being used currently. Do you know if there are any available 
that are safer?
    Dr. Solomon. Well, I was pleased to see that one of the 
dispersants is being used in lesser quantities or perhaps has 
been fully phased out at this point, and that was the one that 
contained a chemical called 2-Butoxyethanol that was the most 
significant health concern. At this time, my understanding is 
that COREXIT 9500 does not contain that chemical of concern. 
And so although there are still questions about the efficacy 
and whether this is in fact the best way to go, the health 
concerns have greatly decreased with that switch.
    Mr. Burgess. But is there another dispersant that is 
available in scalable amounts that would be necessary to manage 
a leak of this size? Is there really anything else out there 
off the shelf?
    Dr. Solomon. BP responded to EPA's request to find an 
alternative dispersant with a memo that was interesting because 
it highlighted the data gaps on all of the dispersants. In 
fact, the BP memo contained a table of all of the different 
dispersants. And then there was a row in the table that was 
supposed to list the persistence, bioaccumulation and chronic 
effects of each of these dispersants. And each cell in the 
table was filled with the same words: proprietary mixture. In 
other words, there wasn't information that would allow at least 
independent scientists to confirm whether there really is a 
safer alternative or not. And so that information----
    Mr. Burgess. So we just don't know.
    Dr. Trapido, let me ask you a question. You discussed the 
importance of registries. Your background is in cancer; is that 
correct?
    Mr. Trapido. That is right.
    Mr. Burgess. The cancer registry that was set up years ago 
has provided valuable data. I believe you also in your 
testimony talked about lacking registries for other chronic 
diseases, particularly respiratory illnesses. So could you give 
us just very briefly some of the importance of the registries 
and their roles in the assessment of health hazards?
    Mr. Trapido. Certainly. Population-based registries record 
information on every diagnosed case of a particular illness in 
a defined geographic area. And so then we can link those back 
to the people who we have in the--who we have been following, 
who either may be first responders, who may be people along the 
shore in the communities, and link those back and make 
connections there. But the point is that we need to be looking 
at some of the early symptoms that might occur, some early 
respiratory problems that might be indicative of further 
scrutiny for the development----
    Mr. Burgess. Longer-term problems. My time is going to be 
up here, so quickly. We just went through a fairly intense and 
brutal markup of a bill dealing with 9/11 first responders in 
this committee. I can't help but feel that there are perhaps 
some similarities in the two situations. Perhaps the right 
things weren't done at Ground Zero after 9/11, and should we 
have learned some lessons with this disaster and our approach 
to it.
    So right now, what is the involvement of the CDC in 
monitoring and assisting with the health assessments? Are they 
on board?
    Mr. Trapido. My impression is that--I have not seen a lot 
of their presence. I don't want to say it is not there, but I 
have not seen a lot of CDC's presence in the community. I don't 
know if they are doing surveillance, I suspect that they are. 
But that is about all that I know.
    Mr. Burgess. Because if there are these long-term problems, 
one of the obligations of the people who caused this disaster 
would be to set up a trust fund so that the taxpayers are not 
then the ones that are looked to to provide the health benefits 
that people may need over a longer term period of time. That is 
my concern. And I am afraid if we don't manage things 
appropriately at this end, then 8 or 9 years later, which is 
where we were with the 9/11 stuff just 2 or 3 weeks ago, it 
becomes very, very difficult in retrospect to sort stuff out.
    Mr. Trapido. I think that is absolutely right. One of the 
problems that HHS has is the ability to respond very, very 
quickly to events like this. On infectious outbreaks they are 
very good. And some of these kinds of outbreaks--not outbreaks, 
occurrences, it is harder because the mechanisms are just not 
there for quick response. And so that I think this identifies 
an area that needs further investigation.
    Mr. Burgess. We do have a hearing in our Subcommittee on 
Health next week. Too bad Mr. Waxman is gone. I would ask him 
if we could invite Secretary Sebelius to be with us that 
afternoon, but maybe we will submit that in writing. So thank 
you, Mr. Chairman.
    Mr. Markey. We thank the gentleman very much.
    I have one final question, if I may, to Dr. Reddy and Dr. 
Solomon.
    During BP's failed top-kill procedure, they injected 30,000 
barrels of drilling mud into the well, hoping to clog it up and 
stop the leak. As we all saw on the spill cam, much of that 
drilling mud found its way out and into the ocean floor, 
coating anything in its path. But drilling mud isn't just dirt; 
it is actually made of synthetic oils and chemicals whose 
identities are kept secret.
    Do you think that BP should immediately disclose all of the 
chemicals used in its drilling mud so that the scientific 
community can best assess the potential impacts? Mr. Reddy.
    Mr. Reddy. Yes. Actually, I actually spent most of 
yesterday trying to investigate what the composition was of the 
drilling muds used, and I was unsuccessful.
    Mr. Markey. Why were you unsuccessful?
    Mr. Reddy. I couldn't find it. I looked on the Web and I 
was unsuccessful.
    Mr. Markey. Would you like us to get you access to that 
information?
    Mr. Reddy. I think it would be scientifically, and also in 
terms of the response, important.
    Mr. Markey. It is hard to investigate something that you do 
not have the evidence in front of you.
    Mr. Reddy. You are absolutely correct.
    Mr. Markey. Even we non-scientists know that. CSI New York 
helps us to see how important it is to get that information 
into your hands. Dr. Solomon?
    Dr. Solomon. When I looked into the composition of the 
drilling muds and drilling fluids, I hit the same kind of data 
gaps that Dr. Reddy described. I did find a little bit of data 
suggesting heavy metal contamination of some of these drilling 
muds, and that raised my level of interest and concern quite a 
bit higher and it made me think that we really do need to 
gather the scientific information on the composition of these.
    Mr. Markey. BP should release immediately the chemicals 
that are included in that drilling mud so that there can be a 
complete, immediate, scientific analysis of what those 
chemicals are and what the potential harm is not only to ocean 
animals and fauna, but also potentially to human beings. And 
one--and I can recognize members if they would like. But one 
other--no. I can end it right there, and I think I will end it 
right there. But thank you very much for your help.
    Dr. Burgess.
    Mr. Burgess. May I just ask a follow-up question along that 
line? Does not OSHA or the EPA require that there at least be a 
posting of the components of that drilling mud if there is a 
Hazmat application, if there is an accident, and whether it be 
fire personnel or Coast Guard personnel need to respond? Are 
there not requirements that the contents of--again, they don't 
have to give the proprietary formula, but at least the 
contents, the potential hazards, be on display or be 
retrievable by someone?
    Mr. Reddy. I would defer.
    Dr. Solomon. I would be happy to try to answer that 
question. There is a requirement that companies provide 
material safety data sheets, MSDSs, on chemicals that are 
handled by workers. And the drilling muds I would imagine would 
fall into that category. The problem with these MSDSs is that 
they do not actually have to list the ingredients. They do have 
to list the acute toxicity of the chemical. And so that would 
be useful and important for someone who is actually directly 
exposed to it.
    My concern with the drilling muds is actually less a worker 
health issue than an ecosystem health issue if these were 
discharged into the ocean, and we don't quite know what is in 
them and whether there is a potential for material that could 
end up in the food chain. But it is a good point that there is 
at least some minimal information available through material 
safety data sheets.
    Mr. Burgess. Mr. Chairman, I would just request that we try 
to get those MSDS sheets from BP, or whoever was involved, and 
at least have that as a starting point.
    Mr. Markey. We will work with the gentleman to be able to 
obtain that information.
    We thank each of you for your testimony today. It is very 
helpful, very timely. If there is other information which you 
think our committee should know of, please let us help you help 
the people in the Gulf.
    With that, this hearing is adjourned. Thank you.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T7909A.020
    
    [GRAPHIC] [TIFF OMITTED] T7909A.021
    
    [GRAPHIC] [TIFF OMITTED] T7909A.022
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
